                                                               UNITED STATES DEPARTMENT OF COMMERCE
                                                               The Inspector General
                                                               Washington, D.C. 20230



July 25, 2014

The Honorable Barbara A Mikulski                     The Honorable Richard C. Shelby
Chairwoman                                           Ranking Member
Commerce, Justice, Science, and Related              Commerce, Justice, Science, and Related
 Agencies Appropriations Subcommittee                 Agencies Appropriations Subcommittee
Senate Committee on Appropriations                   Senate Committee on Appropriations
Room S 128, The Capitol                              Room S 128, The Capitol
Washington, DC 20510                                 Washington, DC 20510

Dear Chairwoman Mikulski and Ranking Member Shelby:

On February 20, 2014, the Department of Commerce Office of Inspector General (OIG) began
an audit of the International Trade Administration's (ITA's) consolidation, in response to a
requirement in Senate Report I 13-78 for the Departments of Commerce and Justice, and
Science, and Related Agencies Appropriations Bill for fiscal year (FY) 2014. Appendix A shows
the different components of ITA before and after the consolidation. The Senate Report
directed OIG to provide an initial report on the progress, efficacy, and management of ITA's
consolidation, including feedback from affected staff and organizations, within 180 days of the
act's passage. Specifically, we sought to assess the status of the consolidation; evaluate changes
in resources, including staffing and funding; and identify management challenges that might
hinder this effort. Results are based on fieldwork conducted through May 30, 2014.

To assess the status of the consolidation, OIG conducted a survey of all ITA employees and
received a 60 percent response rate. (See appendix B for a brief description of the survey's
methodology.) We spoke with ITA senior management and staff involved in planning for and
carrying out the consolidation to gain an understanding of the agency's plan to implement this
effort. To assess resource and staffing changes, we analyzed Departmental and ITA financial
information from the end of FY 20 I I through January 2014. In addition to this initial report, we
will issue a final audit report to ITA in early calendar year 2015 that will contain OIG's findings
and recommendations.

Results in Brief

ITA's consolidation had been scheduled to take effect on October I, 2013, but was delayed
until October 17, 2013, due to the federal government shutdown. Planning for the
consolidation during FY 2013 primarily focused on completing the administrative reorganization
by the start of FY 2014. ITA is continuing to develop work streams, business processes,
schedules, and milestones to manage the achievement of these objectives.
Based on our fieldwork through May 30, 2014, we determined that ITA saved $8 million by
eliminating, through attrition, 50 positions from the end of FY 20 I I through January 2014: 3 I
positions from the former Market Access and Compliance unit and 19 positions from the U.S.
and Foreign Commercial Service (USFCS), the two units that were merged to create Global
Markets. Of these positions, one was an assistant secretary position; 32 were international
trade specialists; and 17 were other positions, such as program analysts, advisors, and office
secretaries. ITA was unable to direct these savings to high-priority programs 1 (such as
expanding overseas markets), instead using the funds to maintain existing operations because
the FY 2013 sequestration had reduced its budget authority from $461 million to $438 million.

Based on our initial analysis of the survey results, we identified five broad areas that warrant
ITA management's attention and further examination during our audit: (I) collaboration within
and among ITA business units following the consolidation, (2) levels of management, (3)
duplication of effort and program changes, (4) changes in employee responsibilities, and (5)
management communication and employee feedback. We present selected survey results that
support these preliminary observations in appendix C (see accompanying slide presentation).

Next Steps in Our Audit

For the remainder of this audit, we intend to analyze ITA's plans to define and measure
operational improvements associated with the consolidation by reviewing relevant
documentation and conducting focus-group interviews with select ITA staff and external
stakeholders. We plan on evaluating the impact of employee concerns about ITA operations as
a result of the consolidation. To determine whether ITA has aligned resources with strategic
priorities, we will explore conducting a resource value analysis of USFCS offices by comparing
staffing costs against office performance. Finally, we will review the extent that Global Markets
is directing its resources toward high-growth and emerging markets based on data from before
and after the consolidation.

This report is also being provided to the House Committee on Appropriations and
Subcommittee on Commerce, Justice, Science, and Related Agencies.

If you have any questions, please contact me at (202) 482-4661, or Carol Rice, Division
Director for Statistical Programs, at (202) 482-6020.

Sincerely,



~ -> ~
Todd J. Zinser

Attachment




1
 Scott Quehl, Chief Financial Officer and Assistant Secretary for Administration, attachment to letter to Senator
Barbara A. Mikulski, November 27, 2012, p. I, "Notification of Proposed Consolidation."



                                                        2
cc:	   The Honorable Penny Pritzker, Secretary of Commerce
       Bruch H. Andrews, Acting Deputy Secretary of Commerce
       Justin Antonipillai, Acting Chief of Staff to the Secretary
       Stefan Selig, Under Secretary for International Trade
       Kenneth E. Hyatt, Deputy Under Secretary for International Trade
       Arun M. Kumar, Director General of the U.S. and Foreign Commercial Service
         and Assistant Secretary for Global Markets
       Paul Piquado, Assistant Secretary for Enforcement and Compliance
       Maureen Smith, Deputy Assistant Secretary for Industry and Analysis
       Justin Guz, ITA Audit Liaison




                                            3
Appendix A: ITA Organizational Structure 

                                       Figure A-1. BEFORE Consolidation

                               Manufacturing and                                   Trade Promotion and
    Executive Direction and                                 Import                                                   Market Access and
                                                                                     the U.S. & Foreign
        Administration             Services              Administration                                                Compliance
                                                                                    Commercial Service


                                                                                                                    Intellectual Property
                                                       Office of Textiles and         Trade Promotion                       Rights,
                                                         Apparel (OTEXA)                 Programs                    Trade Agreements
                                                                                                                         Secretariat


                                                                                     International and            Trade Compliance Center,
                                                        International Trade
                                                       Enforcement Center1        domestic fields, Advocacy          Trade Agreements,
                                                                                   Center, and SelectUSA                Issue Experts


                                                                                                                     Market Access and
                                                                                     Trade Promotion
                                                                                                                    Compliance Regional
                                                                                  Coordinating Committee
                                                                                                                         Structure



                                        Figure A-2. AFTER Consolidation


         Executive Direction              Enforcement and
                                                                           Global Markets2,3                  Industry and Analysis2
         and Administration                 Compliance2



                                     Trade Compliance Center,            International and
          Trade Promotion                                                                                      Manufacturing and
                                        Trade Agreements,             domestic fields, Advocacy
       Coordinating Committee                                          Center, and SelectUSA                       Services
                                           Issue Experts



                                         International Trade             Market Access and                   Office of Textiles,
                                        Enforcement Center1             Compliance Regional                Consumer Goods, and
                                                                             Structure                    Materials (former OTEXA)



                                                                                                                Trade Promotion
                                                                                                                   Programs


                                                                                                               Intellectual Property
                                                                                                                       Rights,
                                                                                                                Trade Agreements
                                                                                                                    Secretariat

 Source: OIG analysis of ITA organizational structure
1
  The International Trade Enforcement Center does not maintain a formal or separate designation within
ITA but is presented under the former Import Administration and current Enforcement and Compliance
given the business unit’s liaison role with the center.
2
  These units did not exist before the consolidation.
3
  This unit includes the U.S. and Foreign Commercial Service.
3
                                                         4


Source: OIG analysis of ITA organizational structure
Appendix B: Survey Methodology

As part of our audit, we conducted an
online survey of all ITA employees, including                   High-level Information About the
American citizens and locally engaged staff                      OIG Survey of ITA Employees
(LES) working in the United States and
                                                            When was it carried out?
abroad.1 We asked employees for their
feedback about different aspects of the                           April 23 through May 9, 2014.
consolidation, such as                                      What was the universe?
    	 employee satisfaction with                                 ITA employees working in the United
                                                                  States and abroad
       management communication and the
       use of employee feedback,                            How many ITA employees received the survey?
                                                                  2,080 employees
    	 changes to the organizational
       structure, career paths, level of                    What were the response rates?
       resources, and intra-ITA                                    All staff: 60%

       collaboration,                                              Non-LES staff: 71%

                                                                   LES staff: 38%

    	 the status of the consolidation, and
    	 the greatest benefits and challenges                 Source: OIG survey of ITA employees
       of the consolidation.

We also obtained employee demographic information to compare results across employee
groups, such as supervisors versus employees and entry-level versus mid-level. Our survey
universe was based on employee rosters from October 2013 that were provided by ITA. We
excluded from our universe any duplicates, employees on long-term leave, and employees who
had left the agency.

For this initial report, we chose to focus on a subset of ITA staff who said they were affected by
the consolidation (64 percent of 954 respondents). This figure excludes LES staff from our
results, which we will present in our final audit report. Most survey questions offered a “don’t
know” response option, which we excluded from our analysis unless otherwise noted. To
better interpret the results contained in this report, we sometimes combined categories (for
example, “very satisfied” and “somewhat satisfied” are reported as “satisfied”). Finally, the
results are weighted for nonresponse.




1
  Locally engaged staff include foreign nationals and other locally resident citizens (including U.S. citizens) who are
classified as ITA employees but whose pay and benefits are processed by the Department of State.


                                                           5
Appendix C: Selected Survey Results


Initial Report on ITA Consolidation

for the
Commerce, Justice, Science, and Related Agencies Appropriations Subcommittee
Senate Committee on Appropriations




Todd J. Zinser
Inspector General

U.S. Department of Commerce
Office of Inspector General

July 25, 2014
                   Selected Survey Results:

                   Respondent Overview

Of the 954 non-locally employed staff (non-LES) who responded to our survey,
64 percent (609 respondents) reported that the consolidation affected them (see
table 1). Of those 609 respondents, 67 percent reported that the consolidation
process was complete for them personally, while 33 percent reported it was
incomplete.
                  Table 1. ITA Staff Affected by the Consolidation by Business Unit (percent)
            Affected by the
                                   Enforcement            Global            Industry and     Executive      Total
            consolidation
                                 and Compliance           Markets             Analysis     Administration    ITA
            (n = 954)
            Yes                         42                   71                      75         49           64
            No                          58                   29                      25         51           36

            Source: OIG survey of ITA employees



The following slides are based on the responses from these 609 non-LES employees
who were affected by the consolidation.The results are weighted for nonresponse and
exclude “don’t know” responses unless otherwise noted.

7/25/2014                U.S. Department of Commerce | Office of Inspector General                                  2
            Selected Survey Results:

            Observations

Based on our initial analysis of the survey results, we identified five broad areas that
warrant ITA management’s attention and further examination during our audit:

       1. Collaboration (table 2)

       2. Levels of management (figure 1)

       3. Duplication of effort and program changes (table 3)

       4. Changes in employee responsibilities (table 4)

       5. Communication from management and employee feedback (tables 5 and 6)




7/25/2014      U.S. Department of Commerce | Office of Inspector General                   3
              Selected Survey Results:

              Collaboration

While the majority of affected employees did not see a change in collaboration as a
result of the consolidation, 23 percent felt consolidation increased collaboration
WITHIN their respective business unit, and 31 percent felt consolidation increased
collaboration BETWEEN their respective business unit and other business units.

            Table 2. Affected Staff Responses on Post-Consolidation Collaboration (percent)

                     Change in collaboration WITHIN                         Change in collaboration BETWEEN
                       your business unit as a result                      your business unit and other business
                           of the consolidation                             units as a result of the consolidation
                                 (n=579)                                                   (n=560)
                Decreased                        8                       Decreased                       14
                Increased                       23                       Increased                       31
                Did not change                  69                       Did not change                  55

                Source: OIG survey of ITA employees




7/25/2014         U.S. Department of Commerce | Office of Inspector General                                          4
            Selected Survey Results:

            Levels of Management

Of note, 51 percent of affected Global Markets employees responded that levels of
management increased as a result of the consolidation.


             Figure 1. Affected Staff Responses on the Post-Consolidation Change
                       in Levels of Management by Business Unit (n=561)
                Executive Administration (n=29)


                   Industry and Analysis (n=111)


                         Global Markets (n=342)


            Enforcement and Compliance (n=79)


                                                   0%           25%        50%    75%   100%
                                          Fewer levels      Same    More levels
            Source: OIG survey of ITA employees




7/25/2014     U.S. Department of Commerce | Office of Inspector General                        5
            Selected Survey Results:
            Duplication of Effort and Program Changes


Thirty-five percent of affected ITA employees said that the consolidation resulted in
more duplication of effort, and 27 percent said that the consolidation resulted in more
unsuccessful and unnecessary programs.


                          Table 3. Affected Staff Responses on Post-Consolidation 

                           Duplication of Effort and Program Changes (percent)

                                                                                 Change in unsuccessful
                     Change in duplication of efforta
                                                                               and unnecessary programs
                                (n=505)
                                                                                       (n=471)
             Less                                  18                   Fewer                          7
             More                                  35                   More                         27
             Did not change                        48                   Did not change               66

             Source: OIG survey of ITA employees

             a   Column figures do not add to 100 due to rounding.





7/25/2014         U.S. Department of Commerce | Office of Inspector General                                6
            Selected Survey Results:
            Changes in Employee Responsibilities


Of the 36 percent of affected ITA employees whose responsibilities changed as a result
of the consolidation, 39 percent of them did not have a clear understanding of the
expectations associated with their new duties and 13 percent were ambivalent.

                      Table 4. Affected Staff Responses on Post-Consolidation 

                                Changes in Responsibilities (percent)

                                                                     For those who answered yes, whether they
              Changes in responsibilities as a result                  agree or disagree if they have a clear
                     of the consolidation                                understanding of the expectations
                            (n=609)                                     related to your new responsibilities
                                                                                      (n=218)
            Yes                               36                     Agree                          48
            No                                55                     Disagree                       39
            Don’t know                         9                     Ambivalent                     13

            Source: OIG survey of ITA employees




7/25/2014      U.S. Department of Commerce | Office of Inspector General                                        7
            Selected Survey Results:
            Communication from Management


Less than half of affected ITA employees were satisfied with both the quality and
quantity of ITA management’s communications about the consolidation.


            Table 5. Affected Staff Responses on Employee Communication (percent)
             Satisfaction/dissatisfaction with the quality                Satisfaction/dissatisfaction with the
             of communication from your management                      quantity of communication from your
                      regarding the consolidation                     management regarding the consolidationa
                                (n=605)                                                 (n=604)
             Satisfied                        44                      Satisfied                        46
             Dissatisfied                     42                      Dissatisfied                     36
             Ambivalent                       14                      Ambivalent                       19

             Source: OIG survey of ITA employees

             a Column figures do not add to 100 due to rounding.





7/25/2014       U.S. Department of Commerce | Office of Inspector General                                         8
            Selected Survey Results:

            Employee Feedback

Less than half of affected ITA employees rated management as effective in both
offering opportunities to provide feedback on the consolidation and acting on it.


              Table 6. Affected Staff Responses on Employee Feedback (percent)
             Management effectiveness/ineffectiveness                 Management effectiveness/ineffectiveness
             in providing opportunities for employee                   in acting on employee feedback related
                 feedback about the consolidation                                to the consolidation
                             (n=594)                                                   (n=540)
            Effective                      46                        Effective                       32
            Ineffective                    36                        Ineffective                     48
            Ambivalent                     18                        Ambivalent                      20

            Source: OIG survey of ITA employees




7/25/2014      U.S. Department of Commerce | Office of Inspector General                                         9
